No. 20-1088

In the Supreme Court of the United States
__________________

DAVID AND AMY CARSON, as Parents and next Friends of
O.C., and TROY AND ANGELA NELSON, as Parents and
next Friends of A.N. and R.N.,
Petitioners,
v.
A. PENDER MAKIN, in Her Official Capacity as
Commissioner of the Maine Department of Education,
Respondent.
__________________
On Writ of Certiorari to the United States
Court of Appeals for the First Circuit

__________________

BRIEF OF AMICUS CURIAE FREEDOM X
IN SUPPORT OF PETITIONERS

__________________

WILLIAM J. BECKER, JR.
PAUL HOFFMAN
FREEDOM X
11500 Olympic Blvd.
Suite 400
Los Angeles, CA 90064
(310) 636-1018

MITCHELL KEITER
Counsel of Record
KEITER APPELLATE LAW
The Beverly Hills
Law Building
424 South Beverly Drive
Beverly Hills, CA 90212
(310) 553-8533
mk@CaliforniaAppellateAttorney

Counsel for Amicus Curiae
September 10, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF INTEREST . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Maine imposes an unconstitutional condition
because it does not merely refuse to
subsidize religious activity but affirmatively
penalizes it . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. Aid recipients do not forfeit funding for
encouraged activity by engaging in protected
activity. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
B. Schools’ religious activity does not undermine
their secular instruction . . . . . . . . . . . . . . . . . . . 14
C. A fully inclusive choice program would best
promote a “neutral” system of education where
“religious preference is not a factor.” . . . . . . . . . 17
D. Expanding choice will prevent divisiveness
because families, not the majority, will make
funding decisions . . . . . . . . . . . . . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

ii
TABLE OF AUTHORITIES
CASES
A.H. by and through Hester v. French,
985 F.3d 165 (2d. Cir. 2021) . . . . . . . . . . . 3, 13, 14
Agency for Intl. Dev.v. Alliance for Open Soc’y Intl.,
570 U.S. 205 (2013). . . . . . . . . . . . . . . . . . . passim
Bd. of Ed. of Cent. Schl. Dist No. 1. v. Allen,
392 U.S. 236 (1968). . . . . . . . . . . . . . . . . . . . . . . . 8
Carson as next friend of O.C. v. Makin,
979 F.3d 21 (1st. Cir. 2020) . . . . . . . . . . . . passim
Cedar Point Nursery v. Hassid,
141 S.Ct. 2063 (2021) . . . . . . . . . . . . . . . . . . . . . 21
Colorado Christian Univ. v. Weaver,
544 F.3d 1245 (10th Cir. 2008). . . . . . . . . . . . . . 11
Committee for Publ. Ed. & Religious Liberty v.
Nyquist, 413 U.S. 756 (1973) . . . . . . . . . . . . . . . 18
Espinoza v. Montana Dept. of Rev.,
140 S.Ct. 2226 (2020) . . . . . . . . . . . . . . . . . 2, 4, 18
Everson v. Bd. of Ed. of Ewing Tp.,
330 U.S. 1 (1947). . . . . . . . . . . . . . . . . . . . 5, 18, 19
FCC v. League of Women Voters of Cal.,
468 U.S. 364 (1984). . . . . . . . . . . . 4, 12, 13, 15, 22
Hosanna-Tabor Evangelical Lutheran Church
and School v. EEOC, 565 U.S. 171 (2012) . . . . . 16
Locke v. Davey,
540 U.S. 712 (2004). . . . . . . . . . . . . . . . . 2, 3, 7, 10

iii
Maher v. Roe,
432 U.S. 464 (1977). . . . . . . . . . . . . . . . . . . passim
Mitchell v. Helms,
530 U.S. 793 (2000). . . . . . . . . . . . . . . . 4, 5, 19, 20
NEA v. Finley,
524 U.S. 569 (1998). . . . . . . . . . . . . . . . . . . . . . . 11
Perry v. Sindermann,
408 U.S. 593 (1972). . . . . . . . . . . . . . . . . . . passim
Regan v. Taxation With Representation of Wash.,
461 U.S. 540 (1983). . . . . . . . . . . . . . . . . . . passim
Rosenberger v. Rector and Visitors of Univ. of Va.,
515 U.S. 819 (1995). . . . . . . . . . . . . . . . . . . . . . . 14
Rust v. Sullivan,
500 U.S. 173 (1991). . . . . . . . . . . . . . . . . . . passim
Santa Fe Ind. Schl. Dist. v. Doe,
530 U.S. 290 (2000). . . . . . . . . . . . . . . . . . 5, 19, 20
Trinity Lutheran Church of Columbia, Inc. v.
Comer, 137 S.Ct. 2012 (2017) . . . . . . . . . . 4, 14, 18
U.S. v. American Library Assn.,
539 U.S. 194 (2003). . . . . . . . . . . . . . . . . . . passim
Witters v. Washington Dept. of Services for
the Blind, 474 U.S. 481 (1986) . . . . . . . . . . . . . . . 8
OTHER AUTHORITIES
CIF Rule 504(M),
https://d2o2figo6ddd0g.cloudfront.net/3/9/
xhymrrv26bn214/500_Series.pdf . . . . . . . . . . . . 17

1
STATEMENT OF INTEREST1
Freedom X is a public interest law firm devoted to
protecting and expanding religious liberty and free
expression. It represents students who challenge
constraints on their political and religious activity.
Freedom X and its supporters are vitally interested in
this case, as Maine coerces students by forcing them to
choose between the substantial economic benefit they
deserve to receive and the religious activity they wish
to pursue. A successful outcome in this case will ensure
not only funding for Maine students who live in
districts without a public school, but also protections
for students nationwide whose expression is stifled by
religious and political intolerance.

1

Amicus files this brief with all parties’ consent. Pursuant to Rule
37.6, counsel for amicus authored this brief in whole, no party’s
counsel authored this brief in whole or in part, and no person or
entity—other than amicus and its counsel—contributed monetarily
to preparing or submitting the brief.

2
SUMMARY OF ARGUMENT
This case offers the Court the opportunity to
decide whether to extend the rule barring
discrimination based on religious status to
discrimination based on religious use. Espinoza v.
Montana Dept. of Rev., 140 S.Ct. 2226, 2257 (2020).
This Court might also decide whether to extend—or
overrule—Locke v. Davey, 540 U.S. 712 (2004). But this
Court need neither extend nor overrule precedent to
resolve this case. This Court can invalidate the
exclusion of religious schools from Maine’s tuition
assistance program by applying extant caselaw.
Though the government does not infringe a
constitutional right just because it declines to subsidize
its exercise (Rust v. Sullivan, 500 U.S. 173, 193 (1991);
Regan v. Taxation With Representation of Wash., 461
U.S. 540, 549 (1983)), the government may not penalize
the exercise of the right. Agency for Intl. Dev.v. Alliance
for Open Soc’y Intl., 570 U.S. 205, 214 (2013) (AID);
Perry v. Sindermann, 408 U.S. 593, 597 (1972). The
First Circuit found there was no constitutional
violation because Maine simply refused to subsidize
religious activity and did not penalize it. Carson as next
friend of O.C. v. Makin, 979 F.3d 21, 41-42 (1st. Cir.
2020), citing Regan at 549. This was incorrect. Because
students at religious schools receive all the secular
instruction prescribed by the state’s curriculum, and
are denied funding only because, in addition to the
prescribed secular instruction, they also engage in
religious activity, the funding denial acts as a penalty,
and therefore imposes an unconstitutional condition.

3
The State may constitutionally pursue its goals by
subsidizing certain activities without subsidizing
alternatives. E.g. U.S. v. American Library Assn. 539
U.S. 194, 211-12 (2003); Rust, 500 U.S. 173, 192; Maher
v. Roe, 432 U.S. 464, 474 (1977). So a State may decide
to subsidize clothing for needy families but refuse to
subsidize religious garments like hijabs or tallitot. Cf.
Locke, 540 U.S. at 721: “The State has merely chosen
not to fund a distinct category of instruction.” But the
State may not deprive an individual of a benefit he
would otherwise receive just because he also exercises
a constitutional right. AID, 570 U.S. 205; Perry, 408
U.S. 593 (1972). It would thus be an unconstitutional
penalty if families who purchased a religious garment
not only lacked a subsidy for it but also lost the subsidy
for the shirts, pants, and shoes they would otherwise
receive.
That is what happens in Maine. Reading, writing,
and arithmetic are the shirts, pants, and shoes, and
families forfeit subsidies for such instruction because
schools also engage in protected First Amendment
activity. That is unconstitutional. AID, 570 U.S. 205;
Perry, 408 U.S. 593. A similar defect invalidated a
comparable program in Vermont. A.H. by and through
Hester v. French, 985 F.3d 165 (2d. Cir. 2021).
This is not a case where the protected activity of
religion would “undermine” the encouraged activity of
secular instruction. AID, 570 U.S. 205, 220. This Court
has upheld conditions disfavoring activities where they
were mutually exclusive to the subsidized activity.
American Library Assn., 539 U.S. 194; Rust, 500 U.S.
173; Regan, 461 U.S. 540; Maher, 432 U.S. 464. But it
has struck down conditions where the protected

4
activity did not undermine the encouraged activity.
AID, 570 U.S. 205, 220; FCC v. League of Women Voters
of Cal., 468 U.S. 364, 388-99 (1984); Perry, 408 U.S.
593. Because religious schools provide the same quality
of secular instruction as other schools, and do not seek
extra funding, the schools’ additional activity of
religion does not undermine the program. “[I]f the
government, seeking to further some legitimate secular
purpose, offers aid on the same terms, without regard
to religion, to all who adequately further that
purpose . . . any aid going to a religious recipient only
has the effect of furthering that secular purpose.”
Mitchell v. Helms, 530 U.S. 793, 810 (2000) (emphasis
added).
Opponents of a more inclusive program contend
that including religious schools will undermine
neutrality (Carson, 979 F.3d at 42) and create
divisiveness (Espinoza, 120 S.Ct. at 2282 (Breyer, J.,
dissenting)). To the contrary, a broader program will
ensure “religious preference is not a factor” in students’
access to education. Many schools fail to accommodate
the sabbaths and religious holidays of minority
religions, so their observers confront a substantial
disadvantage, and may need to renounce their religious
observance to “participate in an otherwise generally
available” school activity. Trinity Lutheran Church of
Columbia, Inc. v. Comer, 137 S.Ct. 2012, 2024 (2017).
Including schools that accommodate the schedules of
Saturday sabbath-observers will enable such students
to make decisions free from external pressure, and
receive the full range of educational opportunities
available to everyone else, without regard to their
religious preference.

5
Nor will their inclusion foster religious divisiveness.
See e.g. Everson v. Bd. of Ed. of Ewing Tp., 330 U.S. 1,
8-13 (1947). It violates the Establishment Clause to
allocate resources by a majority vote, whereby the
adherents of the majority faith can “effectively
silence[]” others. Santa Fe Ind. Schl. Dist. v. Doe, 530
U.S. 290, 304 (2000). But where resources are
distributed equally to “religious, irreligious, and
areligious” alike, through “numerous independent and
private choices,” the government cannot easily grant
special favors that might lead to a religious
establishment. Mitchell, 530 U.S. 793, 809-10.
Maine’s program legitimately promotes secular
education but illegitimately suppresses religious
activity. Excluding accredited schools that provide full
secular instruction from the program because they also
engage in religious activity creates an unconstitutional
penalty on religious exercise. Students attending
religious schools ask not for a carrot of subsidy with
which to practice their religion, but to avoid the stick of
penalty for doing so.

6
ARGUMENT
Maine imposes an unconstitutional condition
because it does not merely refuse to subsidize
religious activity but affirmatively penalizes it.
The exclusion of religious schools from Maine’s
program violates the unconstitutional conditions
doctrine. Though the State may subsidize some
activities without subsidizing others (Rust, 500 U.S.
173, 193; Regan, 461 U.S. 540, 549), it may not deny a
benefit on a basis that infringes a constitutional right.
AID., 570 U.S. 205, 214; Perry v. Sindermann, 408 U.S.
593, 597. The First Circuit found there was no
constitutional violation because Maine simply refused
to subsidize religious activity and did not penalize it.
Carson, 979 F.3d 21, 41-42, citing Regan at 549. This
was incorrect. Because students at religious schools
receive all the secular instruction prescribed by the
state’s curriculum, and are denied funding only
because, in addition to the prescribed secular
instruction, they also engage in religious activity, the
funding denial acts as a penalty, and therefore imposes
an unconstitutional condition.
The State may selectively fund certain programs to
address an issue of public concern without funding
alternative ways of addressing that concern. AID, 570
U.S. at 217. The State may fund childbirth and not
abortion (Maher, 432 U.S. 464, 474), advice about
childbirth over abortion advice (Rust, 500 U.S. 173,
192), non-lobbying activity over lobbying (Regan, 461
U.S. 540, 549), and non-pornographic speech over
pornographic speech (American Library Assn. 539 U.S.
194, 211-12). But the State may not deprive an

7
individual of a benefit he would otherwise receive just
because he also exercises a constitutional right. AID,
570 U.S. 205; Perry, 408 U.S. 593. The government in
AID could not withhold from an organization funds it
would otherwise receive just because it also exercised
its right not to speak. And the college in Perry could not
deny a teacher employment just because he also
exercised his right to speak.
Perry signals the limits of Locke v. Davey, 540 U.S.
712. If Washington could decide to fund degrees in
medicine or computer science but not theology, the
college in Perry could presumably decide to replace
faculty teaching Social Science or Government with
other faculty teaching Physical Science or Engineering.
But it could not deny a teacher his position, when he
was properly fulfilling all his duties, just because he
also engaged in First Amendment activity, whether
political speech, prayer, or religious study. Petitioners
do not seek what was rejected in Locke, funding for
religious instruction instead of secular instruction; they
seek only the same subsidy for secular instruction
provided to every other student in the program. That
religious schools also engage in prayer or Bible study
does not disqualify them from participation.
The same would be true outside education. A State
could decide to subsidize clothing for needy families but
refuse to subsidize religious garments like a hijab or
tallit. Cf. Locke, 540 at 721: “The State has merely
chosen not to fund a distinct category of instruction.”
But it would be an unconstitutional penalty if families
that purchased one not only lacked a subsidy for the

8
religious garment but also lost the subsidy for the
shirts, pants, and shoes they would otherwise receive.
Reading, writing, and arithmetic are the shirts,
pants, and shoes, and families forfeit subsidies for such
instruction because schools also engage in protected
First Amendment activity. That is unconstitutional.
AID, 570 U.S. 205; Perry, 408 U.S. 593.
Though the First Circuit justified excluding
religious schools from the program by citing Maine’s
“interest in concentrating limited state funds on its
goal of providing secular education” (Carson, 979 F.3d
at 47, internal citation omitted), their inclusion would
not impinge on that interest. Nothing in the record
suggests accredited religious schools provide
substandard secular instruction, so their inclusion
would fully serve Maine’s interest in providing secular
education. See Bd. of Ed. of Cent. Schl. Dist No. 1. v.
Allen, 392 U.S. 236, 248 (1968): religious schools “are
performing, in addition to their sectarian function, the
task of secular education.” And Maine would spend no
more per capita to send students to religious schools
than secular ones, so it would not provide a “financial
incentive for students to undertake sectarian
education” through “broader benefits” than those
available to students attending secular schools. See
Witters v. Washington Dept. of Services for the Blind,
474 U.S. 481, 488 (1986). No constitutional ground
justifies the religious schools’ exclusion.

9
A. Aid recipients do not forfeit funding for
encouraged activity by engaging in protected
activity.
The Court’s most recent guidance on distinguishing
constitutional from unconstitutional conditions focused
on the distinction between conditions that “specify the
activities [the State] wants to subsidize” and conditions
that “seek to leverage funding to regulate speech
outside the contours of the program itself.” AID, 570
U.S. at 214-15. The Court recognized States can
manipulate the “definition of a particular program” to
subsume any condition, so it refused to rubber-stamp
any definition offered by the Government to defend its
condition, lest semantics eliminate First Amendment
protections. Id. at 215. The activity Congress wished to
subsidize in AID was “combat[ting] HIV/AIDS around
the world,” and the disputed condition demanded
recipients affirmatively endorse the Government’s
prostitution policy. Id. at 209-10. This went beyond
furthering the particular program of combatting
HIV/AIDS and instead imposed an “ongoing condition
on recipients’ speech and activities” that could not be
“confined within the scope of the Government
program.” Id. at 218, 221. The condition therefore
violated the First Amendment. Id.
The instant activity Maine wishes to subsidize is
instruction in secular subjects. So long as a religious
school properly fulfills that task, Maine has no more
legitimate role in regulating schools’ religious exercise
than Congress had in regulating the recipients’ speech
in AID. The same was true in Perry; so long as the
teacher properly instructed students on Government

10
and Social Science, his additional First Amendment
activity could not justify his termination. Perry, 408
U.S. at 598. Perry was an easier case than AID, where
the condition might have been “relevant to the
objectives of the program,” but such relevance does not
guarantee the condition’s constitutionality. AID, 570
U.S. at 214. The instant condition, that religious
schools suppress all religious activity (even if privately
funded) to receive the subsidy for secular instruction,
exceeds any condition upheld by this Court.
There is a basic difference between encouraging an
activity deemed to be in the public interest and directly
interfering with a protected alternative, so the State
may subsidize childbirth without equally subsidizing
abortion. Maher, 432 U.S. 464, 475 (1977). The State
may likewise subsidize advice about childbirth without
subsidizing advice about abortion. Rust, 500 U.S. at
192-94 (rejecting the view that “if the government
chooses to subsidize one protected right, it must
subsidize analogous counterpart rights.”) And a
decision to subsidize access to library “material of
requisite and appropriate quality for education
purposes” does not entail a State duty to fund access to
pornography. American Library Assn., 539 U.S. 194,
211-12. These cases might support the result in Locke,
540 U.S. 712, allowing states to fund secular but not
religious education.
But they do not authorize penalties for engaging in
constitutionally protected activity. Though the State
could confine its library subsidies to educational
materials (and not pornography), it would be different
if a library denied a visitor equal access to educational

11
materials at the library because he viewed
pornography on his home computer. Similarly, Maher
would have been a different case if it had considered
the current technology that enables pregnant women to
abort one twin and deliver the other. Though the State
could decline to subsidize the abortion, it would be
different if a woman who had undergone an
(unsubsidized) abortion then was denied funding for
childbirth because she had aborted her other child. And
although Congress declined to subsidize indecent art in
NEA v. Finley, 524 U.S. 569 (1998), artists could
produce such work (without subsidy) and still receive
subsidies for projects that qualified as decent.
Moreover, religion warrants neutrality in a way
abortion does not. Colorado Christian Univ. v. Weaver,
544 F.3d 1245, 1260 (10th Cir. 2008).
The Court has thus ensured parties do not lose
access to subsidies for encouraged activity due to their
(unsubsidized) protected activity. In Regan, 461 U.S.
540, 544, Congress could constitutionally confine
subsidies (tax deductions) for charitable organizations
to their non-lobbying activities because the
organizations could create a legal structure permitting
them to engage in (unsubsidized) lobbying. Recipients
of funds in Rust could continue to advise about (or
perform) abortions through other (unsubsidized)
programs. Rust, 500 U.S. at 196. Because these
organizations could receive the subsidy for the
encouraged activity without having to abandon the
protected activity, the State was not “leverag[ing]
funding to regulate speech outside the contours of the
program itself.” AID, 570 U.S. at 214-15.

12
Such leveraging occurred in AID. The organizations
provided full value to the Government in using the
funds they received to further the goal of combatting
HIV/AIDS. Their silence regarding prostitution did not
cost the Government one dime, so there was no
plausible concern that federal funds were being
misdirected to support the protected but not
encouraged activity of nonendorsement.
The AID court expressly addressed—and
rejected—the concern that recipients would use federal
funds to promote prostitution despite the Government’s
opposition. AID, 570 U.S. at 220. The Government’s
argument rested on the premise that its funding would
“simply supplant private funding,” rather than pay for
new programs or expand existing ones. Id. But no
evidence supported such speculation, and the Court
found no reason to believe it was true. Id. Here,
affirmative evidence shows religious schools will use
public funds to pay for new programs or expand
existing ones — i.e. by instructing new students
attending through the program, who would not
otherwise attend. State funding will not simply
supplant private funding; not all students who
currently attend (or wish to) will be able to participate
in the program and receive funding, as many districts
have a public school. Currently attending students,
therefore, will not necessarily be able to draw on State
funds to replace their current tuition payments.
The instant program suffers from the defect that
was fatal in League of Women Voters, 468 U.S. 364.
Broadcast stations that received any federal grant
(regardless of its size) were “barred absolutely from all

13
editorializing.” Id. at 400. The condition did not merely
“specify the activities Congress wants to subsidize”; by
conditioning the grant on the complete absence of
editorials, it “leverage[d] funding to regulate speech.”
AID, 570 U.S. at 214-215. More importantly, unlike the
organizations in Regan, 461 U.S. 540, and Rust, 500
U.S. 173, recipients were “barred from using even
wholly private funds to finance its [protected] activity.”
League of Women Voters at 400.
Maine imposes a comparable restriction. If religious
schools accept any funds from the State, they may not
use even private funds to engage in religious activity.
The State is seeking not only to promote secular
education but also to suppress religious activity. Maine
is thus leveraging its funding to regulate schools’
speech. That resembles the unconstitutional conditions
in AID and League of Women Voters, not the
constitutional ones in Rust and Regan.
The Second Circuit recently addressed a program
similar to Maine’s. A.H., 985 F.3d 165. Like Maine,
Vermont subsidizes private education for students
whose district does not maintain a public high school,
and the State further subsidizes college-level study for
qualified students. Id. at 170-71. However, Vermont’s
college subsidies benefit only students whose secondary
education is state-funded. Id. In other words, like the
family denied funding for both a religious garment and
the other clothing provided to everyone else, students
attending religious high schools are denied funding
both for their secondary education and their (secular)
college-level study. The Second Circuit found that in
forcing parents to choose between religious exercise

14
and receiving otherwise available benefits, Vermont
imposed a “penalty on the free exercise of religion.” Id.
at 180, citing Trinity Lutheran Church of Columbia,
Inc. v. Comer, 137 S.Ct. 2012, 2019 (2017).
Vermont did more than refuse to subsidize religious
education; it affirmatively penalized it. Maine presents
the same choice between religious exercise and an
otherwise available benefit, and likewise imposes an
unconstitutional penalty.
B. Schools’ religious activity does not undermine
their secular instruction
When the State disburses public funds to private
entities, it may take steps to ensure its message is not
garbled. Rosenberger v. Rector and Visitors of Univ. of
Va., 515 U.S. 819, 833 (1995), citing Rust, 500 U.S. 173,
196-200. A possible justification for the AID condition
was that recipients’ silence regarding prostitution could
“undermine” their task in combatting HIV/AIDS. AID,
570 U.S. 205, 220. The Court concluded it would not.
Id.
Where funding conditions were necessary to ensure
protected activity did not undermine encouraged
activity, this Court has upheld the conditions. Because
(at least with a single pregnancy) childbirth and
abortion are mutually exclusive options, every abortion
would have the effect of reducing the number of
childbirths, and thereby undermine that encouraged
activity. Rust, 500 U.S. 173; Maher, 432 U.S. 464.
Every minute that a library patron spent accessing
pornography was a minute he was not accessing
educational materials. American Library Assn., 539

15
U.S. 194. And Congress could reasonably conclude that
if it extended tax deductions to both lobbying and
nonlobbying activity by charitable organizations, more
people would contribute to the former, and fewer funds
would support the latter. Regan, 461 U.S. 540. These
funding conditions were therefore upheld as
constitutional.
By contrast, the protected activity did not
undermine the program in League of Women Voters,
where the Court extensively considered whether
editorial speech would undermine the encouraged
activity, and concluded it would not. Id. 468 U.S. at
388-99. The Perry teacher’s speech outside of class
likewise did not undermine his classroom instruction in
Government and Social Science. Perry, 408 U.S. 593.
And religious activity like prayer or Bible study does
not undermine the encouraged activity of secular
instruction.
In contrast to the mutually exclusive options of
childbirth and abortion, educational materials and
pornography, or nonlobbying and lobbying, instruction
in secular subjects is entirely consistent with religious
exercise. No evidence suggests the accredited religious
schools provide substandard instruction in secular
subjects, or that secular schools provide it more
efficiently.
The First Circuit indulged the premise that schools
engaging in religious activity must necessarily
shortchange secular instruction, because funding is a
zero-sum game. Carson, 979 F.3d 21, 41-42, citing
“Maine’s interest in concentrating limited state funds
on its goal of providing secular education.” It is not, in

16
part because many religious school teachers see their
work as a calling, and are willing to work longer hours
(or accept less compensation) than teachers in secular
schools. See Hosanna-Tabor Evangelical Lutheran
Church and School v. EEOC, 565 U.S. 171, 177 (2012).
Furthermore, schools can express religious values
while simultaneously teaching secular concepts. For
example, a secular school might teach mathematics
through the following word problem:
Madison celebrated Halloween by trick-ortreating. She went to ten homes and collected
two pieces of candy from each. How many total
pieces of candy did she receive?
A religious school might instead use the following
problem:
Miriam celebrated Purim by observing the
commandment to give charity to the poor. She
visited ten families and gave two boxes of food to
each. How many total boxes of food did she give?
The mathematical lesson is the same: ten times two
equals twenty. That the religious school also
emphasizes the importance of charity in no way
undermines the secular instruction.
Because religious schools provide secular
instruction as effectively as nonreligious ones, their
inclusion in the program would not undermine Maine’s
goal of providing students with secular instruction.

17
C. A fully inclusive choice program would best
promote a “neutral” system of education
where “religious preference is not a factor.”
The First Circuit authorized the exclusion of
religious schools so Maine could maintain a “religiously
neutral public education system in which religious
preference is not a factor.” Carson, 979 F.3d at 42. But
the current system is not neutral with regard to
religion, and including more schools among the choices
could optimize neutrality.
The calendar at nearly every “secular” school gives
students at least two weeks’ vacation at the end of
December, yet provides little if any vacation time for
Jewish holidays. Jewish students who observe their
holidays are thus at a significant disadvantage
compared to their classmates, who need never choose
between observing a religious holiday and attending
class. Including schools with other calendars would
thus reduce the risk that a student’s “religious
preference is . . . a factor” in her education.
The problem is even worse for extracurricular
activities like athletics. For example, the California
Interscholastic Federation (like others nationwide)
forbids athletic games or practices on Sundays, except
for schools that observe the Sabbath on Friday and
Saturday.2 Therefore, a student can fully participate in
team practices (which might be necessary to remain on
the team) only by attending a school that also observes
that day of rest. The restriction is even more acute
2

CIF Rule 504(M). https://d2o2figo6ddd0g.cloudfront.net/3/9/xhy
mrrv26bn214/500_Series.pdf

18
regarding games; a student at a “secular” school will
have to renounce her religious observance to
“participate in an otherwise generally available” school
activity. Trinity Lutheran, 137 S.Ct. 2012, 2024. This
is a coercive pressure that a student who observes a
Sunday sabbath (or none at all) will not have to face.
But schools observing a Saturday sabbath can receive
accommodations from other schools and provide them
to their own students. Therefore, only when a student
attends a school observing a Saturday sabbath will
there be scheduling accommodations that enable her
both to observe her faith and participate in the
otherwise available activity.
A more inclusive program will better promote
neutrality with regard to religious preference.
D. Expanding choice will prevent divisiveness
because families, not the majority, will make
funding decisions.
Objection to religious schools’ inclusion is rooted in
fears that it will fuel division and discord. Espinoza,
140 S.Ct. 2246, 2282 (Breyer, J., dissenting), citing
Committee for Publ. Ed. & Religious Liberty v. Nyquist,
413 U.S. 756, 794-796 (1973) [citing Everson v. Bd. of
Ed. of Ewing Tp., 330 U.S. 1, 8-9]. Though the
eighteenth century practices described in Everson did
foster division, inclusive school choice programs have
the opposite effect.
Everson recalled the practices that led the Founding
Generation to bar the federal establishment of religion.
Everson, 330 U.S. at 8-13. Majorities used the state
system of compulsory taxation to force dissenters to

19
subsidize the religious institutions favored by the
majority. Id. at 10. Adherents of the established
denomination thus used state power to gain financial
advantage over dissenters holding competing
viewpoints. Everson extended the Establishment
Clause’s principle of subsidiarity so that individual
states also were barred from favoring any religion,
leaving decisions about religious funding with each
individual household. Id. at 15.
Majority control and exploitation of a state program
can still violate Establishment Clause principles. This
occurred in Santa Fe Ind. Schl. Dist. v. Doe, 530 U.S.
290, where students voted whether to allow a prayer at
high school football games, and who would lead it. Id.
at 297. The system unconstitutionally created a
“majoritarian election on the issue of prayer.” Id. at
316. “[T]he majoritarian process implemented by the
District guarantees, by definition, that minority
candidates will never prevail and that their views will
be effectively silenced.” Id. at 304. The election
entrusted the distribution of resources (i.e. access to
the public address system) to a majority vote, and thus
created “divisiveness along religious lines.” Id. at 317.
But a case decided one week later showed how the
Government could distribute resources in a way that
respected the concerns cited in Everson. Mitchell v.
Helms, 530 U.S. 793. The federal government
distributed educational materials to schools on a per
capita basis. Id. at 802. The program differed from the
one in Santa Fe in two significant ways. First, access to
the state resources was not limited to those holding the
majority’s viewpoint, but were available, in equal

20
amounts, to all, “religious, irreligious, and areligious”
alike. Id. at 809. Second, there was not a single vote
that effected the allocation of property, but numerous
independent and private choices, made by each family.
Id. at 810. These two factors combined to preclude the
divisive competition for governmental favor in
distributing resources that generated the
Establishment Clause. “For if numerous private
choices, rather than the single choice of a government,
determine the distribution of aid pursuant to neutral
eligibility criteria, then a government cannot, or at
least cannot easily, grant special favors that might lead
to a religious establishment.” Id.
The instant program resembles the program in
Mitchell, not Santa Fe. The distribution of funds
depends on numerous private choices, not a single
election, and every student receives an equal amount
of aid, so there is no special favor available to religious
school students. Indeed, the analysis in Mitchell
applies completely here:
[I]f the government, seeking to further some
legitimate secular purpose, offers aid on the same
terms, without regard to religion, to all who
adequately further that purpose . . . then it is fair
to say that any aid going to a religious recipient
only has the effect of furthering that secular
purpose. The government, in crafting such an aid
program, has had to conclude that a given level of
aid is necessary to further that purpose among
secular recipients and has provided no more than
that same level to religious recipients.
Mitchell at 810 (emphasis added).

21
Expanding Maine’s program to include religious
schools will enable families to apply their benefits to
the school of their choice, so they can “shape and plan
their own destiny in a world where governments are
always eager to do so for them.” Cedar Point Nursery v.
Hassid, 141 S.Ct. 2063, 2071 (2021) (internal citation
omitted).

22
CONCLUSION
Maine provides the benefit of subsidized secular
instruction to students who choose to attend
nonreligious institutions but withholds that benefit
from students who choose to attend schools that engage
in religious exercise. This resembles the
unconstitutional penalty struck down in AID, 570 U.S.
205, League of Women Voters, 468 U.S. 364, and Perry,
408 U.S. 593, not the constitutional refusal to subsidize
upheld in American Library Assn., 539 U.S. 194, Rust,
500 U.S. 173, Regan, 461 U.S. 540, and Maher, 432
U.S. 464. Maine does not merely specify the activity it
wishes to subsidize—secular instruction—it also
leverages its funding to suppress protected First
Amendment activity. AID, at 214-15. Suppression is
not necessary to fulfill the program’s goal because
including religious schools in the program would not
undermine secular instruction. Inclusion would foster
neutrality and not division. This Court must reverse
the First Circuit’s decision.
Respectfully submitted,
WILLIAM J. BECKER, JR.
PAUL HOFFMAN
FREEDOM X
11500 Olympic Blvd.
Suite 400
Los Angeles, CA 90064
(310) 636-1018

MITCHELL KEITER
Counsel of Record
KEITER APPELLATE LAW
The Beverly Hills
Law Building
424 South Beverly Drive
Beverly Hills, CA 90212
(310) 553-8533
mk@CaliforniaAppellateAttorney
Counsel for Amicus Curiae

